               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




    Statistical Tests for Fiscal Year 2011

               Management Advisory




                                         September 29, 2011

Report Number FF-MA-11-168
                                                                    September 29, 2011

                                               Statistical Tests for Fiscal Year 2011

                                                        Report Number FF-MA-11-168




IMPACT ON:
The U.S. Postal Service’s accuracy of       statistical programs training. Further, we
data collected for Origin-Destination       continue to identify issues regarding
Information System-Revenue, Pieces,         protection of data collection equipment.
and Weight (ODIS-RPW) tests.                When ODIS-RPW test procedures are
                                            not followed, there is an increased risk
WHY THE OIG DID THE AUDIT:                  that the Postal Service will incorrectly
Our objective was to determine whether      estimate revenue and mail volume.
the Postal Service conducted statistical
ODIS-RPW tests to collect revenue and       WHAT THE OIG RECOMMENDED:
volume data in accordance with policies     Because Statistical Programs did not
and procedures. We conducted this           have enough time to implement its
review in support of the audit of the       corrective action from last year’s report,
Postal Service’s financial statements.      we are not making a recommendation
                                            related to test errors. We did
WHAT THE OIG FOUND:                         recommend that each district certify that
The Postal Service did not always           all data collectors received training and
conduct ODIS-RPW tests in accordance        scales are properly calibrated and/or
with established data collection policies   leveled before conducting tests.
and procedures. We identified 77 errors
in 32 of 65 tests observed, including       WHAT MANAGEMENT SAID:
data collectors not:                        Management agreed with all the findings
 Determining the appropriate random        and recommendations. Specifically,
    start and mailpiece and/or container    management will provide scale
    skip intervals.                         calibration training modules and videos
 Verifying information keyed into the      to be included in the quarterly training.
                                            In addition, it will direct district managers
                        laptop.             of Finance Programs Compliance to
   Properly identifying, isolating, and    ensure that training has been entered
    capturing mail to be sampled/tested.    into the Learning Management System.
 Using marking slips to identify mail
    being tested.                           AUDITORS’ COMMENTS:
 Conducting the necessary interviews       The OIG considers management’s
    with facility personnel.                comments responsive to the
We also identified issues related to the    recommendations and corrective actions
          scales not being leveled and/or   should resolve the issues identified.
calibrated and data collectors in one
district not receiving mandatory            Link to review the entire report
September 29, 2011

MEMORANDUM FOR:              JOSEPH D. MOELLER
                             MANAGER, REGULATORY REPORTING AND COST
                             ANALYSIS




FROM:                        John E. Cihota
                             Deputy Assistant Inspector General
                              for Financial Accountability

SUBJECT:                     Management Advisory – Statistical Tests for Fiscal Year
                             2011 (Report Number FF-MA-11-168)

This report presents the results of our review of the statistical tests for fiscal year 2011
(Project Number 11BD001FF000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Juan Gonzalez, acting director,
Field Financial West, or me at 703-248-2100.

Attachments

cc: Joseph Corbett
    Ronald J. Poland
    Deborah Giannoni-Jackson
    Corporate Audit and Response Management
                                             TABLE OF CONTENTS
Introduction .......................................................................................................................... 1

Conclusion ........................................................................................................................... 1

The Postal Service Has Repeat Test Errors and Data Protection Issues ......................... 2

   Repeat Issues .................................................................................................................. 2

   Additional Test Errors ...................................................................................................... 4

   Other Observations.......................................................................................................... 5

Recommendations .............................................................................................................. 6

Management’s Comments .................................................................................................. 6

Evaluation of Management’s Comments ............................................................................ 7

Appendix A: Additional Information..................................................................................... 8

   Background ...................................................................................................................... 8

   Objective, Scope, and Methodology ............................................................................... 8

   Prior Audit Coverage ....................................................................................................... 9

Appendix B: Detailed Analysis .......................................................................................... 10

Appendix C: Management’s Comments ........................................................................... 14
Statistical Tests for Fiscal Year 2011                                                                FF-MA-11-168




Introduction

This report presents the results of our review of the statistical tests for fiscal year (FY)
2011 (Project Number 11BD001FF000). The objective of our review was to determine
whether the U.S. Postal Service conducted statistical Origin-Destination Information
System-Revenue, Pieces, and Weight (ODIS-RPW) tests to collect revenue and volume
data in accordance with established policies and procedures. We reviewed tests of the
ODIS-RPW and conducted this work in support of the audit of the Postal Service’s
financial statements. 1 See Appendix A for additional information about this review.

ODIS-RPW is the primary probability sampling system that estimates revenue, volume,
and weight for most classes of mail and extra services. 2 The Postal Service uses test
data to develop new rates, assist in budget preparation, conduct management studies,
and support management decisions concerning mail flow. The Postal Service also relies
on statistical programs sample data for revenue protection and to estimate stamp usage
in the calculation of Postage in the Hands of the Public (PIHOP). 3

Conclusion

The Postal Service did not always conduct ODIS-RPW tests in accordance with
established data collection policies and pr ocedures. We identified 77 errors in 32 of 65
tests observed. 4 The percentage of test errors has increased significantly from prior
years. In this report, we discuss in detail only the most frequent type of test errors,
which we define as those that occurred in at least 5 percent of the tests observed. We
identified five types of test errors that accounted for 75 of the 77 errors. These errors
include data collectors not:

    Determining the appropriate random start and mailpiece and/or container skip
     intervals (26 errors).

    Verifying information keyed into the
                laptop (19 errors).

    Properly identifying, isolating, and capturing mail to be sampled/tested (11 errors).

    Using marking slips to identify mail being tested (13 errors).

    Conducting the necessary interviews with facility personnel (six errors).

1
  This report does not present the results of audit work required under the Postal Accountability and Enhancement
Act of 2006 (Postal Act of 2006).
2
  The Postal Service has identified a number of internal control design gaps related to the RPW general computer
controls and the documentation of management oversight for data collection and the analysis procedures.
3
  PIHOP is the process of deferring the recognition of revenue for postage purchased but for which services have not
yet been provided.
4
  These errors occurred in 13 of the 16 districts reviewed.
                                                            1
Statistical Tests for Fiscal Year 2011                                                               FF-MA-11-168




In addition to the test errors, data collectors in four districts did not always ensure that
scales used were leveled and/or calibrated. Also, data collectors in one district 5 did not
receive mandatory quarterly training related to statistical programs.

Further, we continue to identify errors and issues over protection of data collection
equipment (eight of the 16 districts reviewed), which we previously reported in our
FY 2008, 2009, and 2010 reports. When data collectors do not follow ODIS-RPW test
procedures, there is an increased risk that the Postal Service will incorrectly estimate
revenue and mail volume.

The Postal Service Has Repeat Test Errors and Data Protection Issues

We identified test errors that are repeat findings from prior year audits. Although the
corrective actions Postal Service management has taken significantly decreased these
errors in FYs 2010 and 2009, there were more errors identified this year than the prior 2
years combined.

Repeat Issues

The most frequent type of test errors identified this fiscal year 6 includes data collectors
not:

   Following procedures to determine the appropriate random start and mailpiece
    and/or container skip intervals 7 in nine districts (26 errors). Specifically, the errors
    related to:

    o Not accurately applying mailpiece/container skip interval (20 errors).

    o Not following a consistent method of counting and choosing
      mailpieces/containers (three errors).

    o Not applying the correct random start number (two errors).

    o Not applying the correct carry over number to the next container (one error).

    A data collector must select the required mailpieces by applying the mailpiece skip
    interval through all selected mailpieces and/or containers using the container skip
    interval. 8 In most instances, data collectors stated the errors were due to an

5
  This district, the Southeast New England District, was eliminated in March 2011 and absorbed by the Connecticut
Valley and Greater Boston Districts.
6
  These issues were also reported in the last 3 fiscal years.
7
  The skip interval is an assigned number the data collector uses during ODIS-RPW tests to systematically select
mailpieces for recording. For example, a skip interval of 10 would require the data collector to select the first
mailpiece using the start number and then to select every 10th mailpiece for recording.
8
  Handbook F-75, Data Collection User's Guide for Revenue, Volume, and Performance Measurement System,
Section 3.7.2.4, October 2003.


                                                         2
Statistical Tests for Fiscal Year 2011                                                                    FF-MA-11-168



     oversight. However, three data collectors were unaware of the requirement to be
     consistent in how they count containers when selecting their sample, even though
     they had more than 6 years of data collection experience each.

    Verifying information keyed into the            laptop was correct in seven districts
     (19 errors). As data from a mailpiece is entered into the           laptop, a record of
     each entry appears on the right side of the screen. After all the data for the mailpiece
     has been entered, the data collector must verify the information is correct by
     answering the prompt. 9 Although the information was entered incorrectly for
     19 mailpieces, the data collectors certified it was correct by answering the prompt.
     The 19 errors occurred in 13 tests in which data collectors entered 3,189 records
     into           In most instances, data collectors stated they overlooked entering the
     correct information. One data collector stated the Postal Service recently approved a
     new price marking, and she was not accustomed to identifying it on mailpieces.
     Another data collector stated she was unaware of how to enter unreadable postage.

We also observed data collectors in eight districts who did not follow procedures for
protecting data collection equipment. Specifically, in 1310 instances on 11 of 65 test
observations, data collectors did not place             laptops into hibernation mode or
lock the keyboard when their laptops were unattended. Data collectors must preserve
the integrity of test data by placing their laptops in hibernation mode or locking
keyboards when laptops are unattended. 11 Generally, data collectors stated they did not
lock laptops because of an oversight. This is a repeat finding from each of the prior
5 fiscal year U.S. Postal Service Office of Inspector General (OIG) reports. The Postal
Service has taken corrective action in response to each report; however, we continue to
identify this issue consistently.

Of the 65 data collectors we observed, 36 made errors while conducting tests. 12 These
data collectors had an average of 10 years of data collection experience. In response to
the FY 2010 report, the Postal Service stated it would track data collector performance
for FY 2011 for data collectors for whom process reviews were completed and take
appropriate action in response to performance issues. Statistical Programs
management stated that process reviews will be completed for more than 300
judgmentally selected 13 data collectors by the end of September 2011 and remedial
training will be provided as necessary. In addition to the implemented recommendation,
Statistical Programs developed two training courses related to sampling procedures and
indicia recognition that all data collectors will complete by the end of FY 2011. Since
Statistical Programs has not had enough time to fully implement its corrective action in
response to last fiscal year’s report, 14 we are not making a recommendation at this time.
9
  Handbook F-75, Chapter 3, pages 3-65.
10
   One data collector failed to secure the laptop on three separate occasions during one observation. All other
occurrences were one instance in one test observed.
11
   Handbook F-75, Appendix G-7 (Section IV.F); Handbook F-85, Data Collection User’s Guide for International
Revenue, Volume, and Performance Measurement Systems, Appendix B, Section IV, page B-9; and Statistical
Programs Letter #6, FY 2008, Administration.
12
   Thirty-four were full-time data collectors, one was a part-time data collector, and one was a cadre data collector.
13
   Based on data analyzed to identify data collectors who are potentially deviating from sampling procedures.
14
   Statistical Tests for Fiscal Year 2010 (Report Number FF-AR-10-222, dated September 14, 2010).



                                                            3
Statistical Tests for Fiscal Year 2011                                                                  FF-MA-11-168



We will continue to monitor these issues during our FY 2012 ODIS-RPW test
observations.

Additional Test Errors

In addition to the repeat errors identified, we also identified other errors that occurred in
at least 5 percent of the tests observed. Specifically, data collectors did not:

    Properly identify, isolate, and capture mail to be sampled/tested in ODIS-RPW
     testing in five districts (11 errors). Specifically, the errors related to:

     o Facility employees removing containers before the data collector counted them
       and included them in the test (five errors).

     o Excluding mail from the test based on misinterpretation of special instructions 15
       (two errors).

     o Not counting all mailpieces in a container (two errors).

     o Not entering all mailpieces selected as part of the sample into                                  (one
       error).

     o Not including mail that was broken down into carrier cases (one error).

     The data collector is responsible for identifying, isolating, counting, sampling, and
     recording the necessary mailpieces at the appropriate mail exit point (MEP). 16 In
     most instances, data collectors stated that errors were due to an oversight. One data
     collector stated he became confused with the special instructions on how to test
     mixed shape containers. The supervisor was unaware the data collector was
     misinterpreting the special instructions. Once the auditors brought these errors to
     their attention, data collectors corrected each error.

    Use marking slips to identify mail being tested in seven districts (13 errors). Data
     collectors must use marking slips to mark trays, bins, and all containers to be
     tested. 17 In most instances, data collectors stated the errors were due to an
     oversight. In five instances, the data collectors believed it was not necessary to use
     the slips because they were at smaller units and could verbally notify unit personnel
     which containers they were testing as they were being unloaded from the truck.

    Conduct the necessary interviews with delivery supervisors, facility managers,
     clerks, and mail handlers to assist with isolating, counting, and recording the
     appropriate mailpieces in two districts (six errors). The advice and cooperation of
15
   Special Instructions include information such as cut-off times, bypass mail, afternoon dispatch mail, drop shipment
parcels, and mail to be excluded from the test.
16
   A MEP is a physical location where clusters of mail can be sampled as they exit the Postal Service. Handbook
F-75, Chapter 3, pages 3-5 through 3-207.
17
   Handbook F-75, Chapter 3, pages 3-6.


                                                           4
Statistical Tests for Fiscal Year 2011                                                                FF-MA-11-168



     facility personnel would be invaluable in helping the data collector isolate, count, and
     record the appropriate mailpieces. 18 Four of the errors were in one district. The
     Statistical Programs supervisor at the district stated there was usually one data
     collector who notifies all the units of the tests the prior day; however, she did not
     send out any notifications that week. In another instance, the data collector
     explained she was nervous and uncomfortable seeing both the OIG and the
     supervisor of Statistical Programs on-site upon her arrival at the unit. She also
     stated she assumed the supervisor conducted the interviews with the unit
     employees since she arrived at the unit first.

Statistical Programs management stated they would conduct process reviews on all
data collectors we observed making errors. The errors we identified would also be
identified during planned process reviews and corrected during remediation. Therefore,
we are not making a recommendation at this time. We will continue to monitor these
issues during our FY 2012 test observations.

Other Observations

Data collectors did not always level and/or calibrate the scales used in conjunction with
          laptops. Specifically, data collectors did not level the         scale using the
leveling bubble before three tests in three districts. In addition, one district had not
calibrated the scales used during four of our observations in the last 2 years. To ensure
accurate weight recordings, data collectors should always level the scale before they
begin a test. Also, scales should be calibrated at least once per month 19 to reduce the
risk of recurring measurement errors. In two instances, the data collectors were aware
of the calibration requirement and stated this occurred due to oversight. Another data
collector stated she did not know how to make the necessary adjustments to level the
scale. The Statistical Programs supervisor at the district stated that, due to budget
constraints, there were not enough test weights for each data collector and the scales
were not calibrated. However, because scales only need to be calibrated once a month,
one set of test weights was deemed sufficient to calibrate all scales used for data
collection.

One district did not provide required quarterly training to its data collectors. 20 Each
quarter, every district must conduct at least 1 day of statistical programs training for
data collectors. The districts must enter all data collector training into the National
Training Database. 21 Specifically, the four data collectors observed did not receive the
statistical programs training course for Quarters 1 and 2, FY 2011, which include the
period from October 2010 through March 2011. The manager stated he believed the
data collectors had received the training and should have paid more attention to the
quarterly training requirements.


18
   Handbook F-75, Section 3.2, pages 3-17.
19
   Handbook F-75, Appendix F, Section II, pages F-5 to F-8.
20
   Even though the district did not provide quarterly training, there were no reported test errors in this district.
21
   Handbook F-75, Appendix G, Operating Policies, Section V, Training and Process Review, Part A, Training, pages
G-8 & G-9.


                                                         5
Statistical Tests for Fiscal Year 2011                                         FF-MA-11-168



Manual sampling processes can be inherently more risky because of the potential for
non-sampling errors. This includes undercoverage of all elements in the sampling
universe, measurement errors, and processing errors such as mistakes in data coding.
With the large number of data collectors performing this function, the risk for certain
types of errors will remain as long as the process is done manually. Management may
want to consider implementing automated controls or processes to reduce the risk of
making these types of errors and potentially to reduce the costs associated with this
process.

See Appendix B for a detailed analysis of our findings, including our observations and
testing errors by district and a comparative discussion of the conditions reported in our
FY 2008, 2009, and 2010 audit reports.

Recommendations

We recommend the manager, Regulatory Reporting and Cost Analysis, direct the
manager, Statistical Programs, to:

1. Instruct district managers on financial program compliance to certify that all data
   collectors’                                           scales are properly calibrated
   and data collectors are following the requirements for scale leveling before
   conducting tests.

2. Direct district managers of financial programs compliance to certify that all data
   collectors have received their quarterly training.

Management’s Comments

Management indicates agreement with recommendation 1 and agreed with
recommendation 2 in this report. However, management contends that although the
percentage of test errors has increased significantly from prior years, some of the errors
had an insignificant effect on the overall estimates of revenue, volume, and weight from
Origin-Destination Information System-Revenue, Pieces, and Weight. Management
noted that 20 of the 77 errors observed related to situations where the data collector did
not select the correct mailpiece while applying sampling procedures.

Regarding recommendation 1, management added a training module and videos to the
Postal Quarter I, FY 2012, quarterly training demonstrating the proper method to verify
calibration, update the calibration log, and perform scale leveling prior to the test. In
addition, beginning in Postal Quarter II, FY 2012, scale leveling will be a required entry
on the ODIS-RPW Data Entry Header Screen, and by Postal Quarter III, FY 2012, the
calibration verification log will be maintained electronically on the         Web Base
Unit.




                                             6
Statistical Tests for Fiscal Year 2011                                         FF-MA-11-168



Regarding recommendation 2, management will direct district managers of Financial
Programs Compliance to ensure that training has been entered into the Learning
Management System for directly managed data collectors.

Management stated they will complete all actions by December 31, 2011. See
Appendix C for management’s comments in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
corrective actions should resolve the issues identified in the report.

However, in response to management’s assertion that some of the test errors identified
did not significantly affect the estimates of revenue, volume, and weight, we conduct
observations of ODIS-RPW tests for compliance with procedures documented in
Handbook F-75. If the skip interval errors identified result in an insignificant impact on
the overall estimates, then management should consider revising their policies and
procedures to include an acceptable error rate for each test.




                                             7
Statistical Tests for Fiscal Year 2011                                                                FF-MA-11-168



                                 Appendix A: Additional Information

Background

The Postal Act of 2006 divided Postal Service products into two categories:
market-dominant and competitive. Market-dominant product price increases cannot
exceed the increase in the Consumer Price Index and apply to each class of mail. For
competitive products, the Postal Regulatory Commission (PRC) has set rules for a
pricing floor that must cover the product’s costs and a required contribution to
institutional costs. 22 The Postal Service will have the flexibility to change pricing on
competitive products as it wishes, consistent with the PRC rules, as long as it publishes
the price in the Federal Register at least 30 days before the effective date.

ODIS-RPW is the primary probability sampling system that estimates revenue, volume,
and weight. The Postal Service uses data from tests to develop new rates, assist in
budget preparation, conduct management studies, and support management decisions
concerning mailflow. In addition, information collected from ODIS-RPW tests is used to
calculate PIHOP. The ODIS-RPW test requires data collectors to select systematically
mailpieces using a random start for all mail available on the randomly selected day.
Data collectors record various mailpiece characteristics, such as revenue, weight,
shape, indicia, barcode, postmark time, origin, and mail class.

Every person involved with collecting statistical programs data is to be reviewed on all
processes they regularly perform. A data collector with less than 1 year's experience in
a program is to be reviewed at least twice during the first year in that program. A data
collector with more than 1 year's experience in a program is to be reviewed at least
once during the fiscal year in that program. Local management is responsible for
initiating action for any improvement opportunities noted during the observations. 23
Once management completes a process review, the results must be entered in the
Process Support and Tracking System. This system provides reports used to identify
training opportunities.

Objective, Scope, and Methodology

The objective of our review was to determine whether the Postal Service conducted
statistical ODIS-RPW tests to collect revenue and volume data in accordance with
established policies and procedures. To achieve our objective, we observed 65
judgmentally selected data collectors perform 65 ODIS-RPW tests in 16 districts. 24 We
interviewed the data collectors and r eviewed the reports of each test district the
Statistical Programs managers provided.

22
   Institutional costs are infrastructure and administrative costs.
23
   Handbook F-95, Statistical Programs Management Guide, Section 6.1, June 2005, and Guidelines for Using Data
Collection Resources HQ SP training directives, dated March 9, 2009, and September 25, 2009.
24
   We judgmentally selected districts where we had not observed tests within the last 3 years. We obtained the test
schedules from each district for the period of our fieldwork and judgmentally selected tests that fit our fieldwork
schedule. Data collectors were assigned to the tests by the district before our selection. At the request of the
manager of statistical programs, we observed one parcel test as part of our observations in each district.


                                                         8
Statistical Tests for Fiscal Year 2011                                              FF-MA-11-168



We conducted this review from January through September 2011 in accordance with
the Council of the Inspectors General on Integrity and Efficiency, Quality Standards for
Inspection and Evaluation. We did not assess the reliability of the ODIS-RPW data and
did not rely on that data for the purposes of this report. We discussed our observations
and conclusions with management on August 26, 2011, and included their comments
where appropriate. We also issued the results of our observations in interim
management advisories to 16 district managers.

Prior Audit Coverage

                               Report      Final Report
     Report Title              Number          Date                Report Results
  Statistical Tests for     FF-AR-09-024    11/24/2008    Data collectors did not always
  Fiscal Year 2008 –                                      follow proper random start and
  Cost and Revenue                                        skip intervals; identify, isolate, and
  Analysis                                                capture mail to be tested; verify
                                                          the information keyed into
                                                          laptops; adhere to sampling
                                                          procedures; or bring required test
                                                          material to the site. In addition,
                                                          data collectors did not always
                                                          follow procedures for protecting
                                                          data collection equipment.
  Statistical Tests for     FF-AR-10-015    11/20/2009    Data collectors did not always
  Fiscal Year 2009 –                                      follow proper random start and
  Cost and Revenue                                        skip intervals, verify the
  Analysis                                                information keyed into
                                                          laptops, or use marking slips to
                                                          identify mail being tested. In
                                                          addition, data collectors did not
                                                          always follow procedures for
                                                          protecting data collection
                                                          equipment.
  Statistical Tests for     FF-AR-10-222    9/14/2010     Data collectors did not always
  Fiscal Year 2010                                        follow proper random start and
                                                          skip intervals or verify the
                                                          information keyed into
                                                          laptops. In addition, data collectors
                                                          did not always follow procedures
                                                          for protecting data collection
                                                          equipment.




                                               9
Statistical Tests for Fiscal Year 2011                                                                FF-MA-11-168



                                    Appendix B: Detailed Analysis

Tables 1, 2, and 3 present information on testing errors identified in each district and a
summary comparison of the conditions reported in our FYs 2008, 2009, and 2010 audit
reports.

                Table 1: Summary of FY 2011 ODIS-RPW Observations and
                               Testing Errors by District
                                                                                  Total          Number
                                     Number of                Number of          Number          of Tests
                                   Data Collectors              Tests               of             with
             District 25             Observed                 Observed            Errors          Errors
      Atlanta                                4                      5                 7               3
      Capital                                4                      4                 2               2
      Central Plains                         3                      4                 1               1
      Chicago                                4                      4                 3               2
      Dallas                                 4                      4                 0               0
      Detroit                                5                      4                10               4
      Fort Worth                             4                      4                 1               1
      Greater South                          4                      4                 1               1
      Carolina
      Hawkeye                                3                      4                12               4
      New York                               5                      4                 5               2
      Philadelphia                           4                      4                11               3
      Metropolitan
      Sacramento                              5                      4                7               3
      San Diego                               4                      4               13               4
      SE New England                          4                      4                0               0
      South Florida                           5                      4                0               0
      Western New York                        3                      4                4               2
      Total                                  65                     65               77              32
       Source: Interim management advisories issued by OIG to each district during FY 2011.
       * The districts highlighted had no reported test errors.




25
  Although the percentage of tests with errors appears high, each test contains hundreds of record entries each with
multiple fields. Therefore, the percentage of erroneous test entries is much lower than the total number of tests
containing errors.


                                                         10
 Statistical Tests for Fiscal Year 2011                                                                                       FF-MA-11-168



                           Table 2: Detail of FY 2011 ODIS-RPW Test Errors 26 and Observations by District 27




                                                                                                                                                                                                     Western New
                                                                                                                                                  Metropolitan




                                                                                                                                                                                                     York District
                                                                                                                                                  Philadelphia



                                                                                                                                                                 Sacramento
                                                                                                    Fort Worth




                                                                                                                                                                              San Diego




                                                                                                                                                                                                                     Total Test
                                                                                                                                       New York
                                                                                                                            Hawkeye
                                                                                                                 Carolina
                                                                             Chicago




                                                                                                                                                                                          England
                                                                                                                                                                                          SE New
                                                                                                                 Greater
                                            District



                                                       District




                                                                  District


                                                                             District



                                                                                        District


                                                                                                    District




                                                                                                                 District


                                                                                                                            District


                                                                                                                                       District



                                                                                                                                                  District


                                                                                                                                                                 District


                                                                                                                                                                              District



                                                                                                                                                                                          District
                                                                  Central
                                            Atlanta



                                                       Capital




                                                                                        Detroit




                                                                                                                                                                                                                     Errors
                                                                  Plains




                                                                                                                 South
Test Errors/Observations
ODIS-RPW
Data collector did not follow
procedures to determine appropriate
                                            X (3)                            X (3)      X (2)                      X (1)    X (2)      X (2)        X (4)        X (2)        X (7)                                   26*
random start and mailpiece/container
skip intervals.
Data collector did not verify the
information keyed into the                  X (4)                                       X (4)                               X (1)                   X (1)        X (3)        X (2)                  X (4)            19*
laptops.
Data collector did not properly
identify, isolate, and capture mail to
                                                                                        X (2)                               X (1)                   X (3)        X (2)        X (3)                                   11*
be sampled/tested in ODIS-RPW
tests.
Data collector did not use marking
                                                       X (2)       X (1)                X (2)       X (1)                   X (4)      X (2)        X (1)                                                             13*
slips to identify mail being tested.
Data collector did not conduct the
necessary interviews with delivery
supervisors, facility managers, clerks,
                                                                                                                            X (4)                   X (2)                                                               6*
and mail handlers to assist with
isolating, counting, and recording the
appropriate mailpieces.
Data collector did not use the smallest
container and mailpiece skips                                                                                                          X (1)                                  X (1)                                     2
possible for the available test time.
Total Test Errors                                                                                                                                                                                                      77
Other Observations
Data collector did not follow
procedures to protect data integrity        X (3)      X (1)                 X (2)      X (2)                               X (1)      X (1)                     X (2)                               X (1)             13
and data collection equipment.
 * Most frequent test error, occurring in more than 5 percent of the total tests.




 26
      The numbers of tests errors are shown in parentheses.
 27
      Three of 16 districts observed had no reported testing errors and other observations.


                                                                                                   11
 Statistical Tests for Fiscal Year 2011                                                  FF-MA-11-168




Data collector did not always ensure
that scales used in conjunction with
                                           X (1)          X (1)                         X (4)   X (1)                   7
          were leveled and/or
calibrated.
Data collectors interpreted special
instructions for testing containers
                                                                                                        X (1)           1
holding more than one mail shape in
different ways.
Data collector did not receive
                                                                                                                X (4)   4
quarterly training.
 Source: Interim management advisories issued by OIG to each district during FY 2011.




                                                                      12
Statistical Tests for Fiscal Year 2011                                                           FF-MA-11-168



Table 3: Summary of Previously Reported Testing Errors and Management Issues
                                                                             Number of Testing Errors
 Description of Testing Errors28                                            FY    FY        FY      FY
                                                                           2011  2010     2009     2008
 ODIS-RPW – Number of Tests Observed                                        65    63        63      53
 Data collector did not follow procedures to determine appropriate
 random start and mailpiece/container skip intervals.                       26         5        12        23
 Data collector did not verify the information keyed into
 laptops.                                                                   19         5         9        14
 Data collector did not properly identify, isolate, and capture mail to
 be sampled/tested.                                                         11         0         1        15
 Data collector did not use marking slips to identify mail being
 tested.                                                                    13         0         4        0
 Data collector did not communicate effectively with unit personnel
 to ensure test mail was identified, flagged, and isolated.                  6         0         0        0
 Data collector did not use the smallest container and mailpieces
 skips possible for the available test time.                                 2         0         0        0

 Data collector did not bring the required test material to the site.        0         1         3        3
 Data collector did not adhere to container sub-sampling or
 mailpiece sampling procedures.                                              0         0         1        8
 Total Number of Errors                                                     77      11        30       63
                                                                                 Number of Errors/
                                                                                Districts with Errors
                                                                            FY      FY        FY       FY
 Description of Management Issues29                                        2011    2010      2009     2008
 Management Issue - Number of Districts Observed:                           16      10        13       14
 Data collector did not follow procedures to protect data integrity
 and data collection equipment.                                             13         7        10        7
 Unit management did not always ensure that scales used in
                                                                             7         1         1        1
 conjunction with            were leveled and/or calibrated.
 Data collectors interpreted special instructions for testing
                                                                             1         0         0        0
 containers holding more than one mail shape in different ways.
 Manager, Statistical Programs, did not ensure data collectors were
 properly trained before conducting test.                                    4         0         1        0
 Manager, Statistical Programs, did not review MEP before test.              0         0         3        0
 Manager, Statistical Programs, did not document training received
 by employee.                                                                0         0         0        1
 Data collector did not consistently process short-paid mail.                0         0         0        1
                                           30
 Total Number of Management Issues                                    25        8      15         10
Source: Interim management advisories issued by OIG to each district during FY 2011 and prior statistical
test capping reports.




28
   The cells highlighted in gray occurred in at least 5 percent of our observations.
29
   The cells highlighted in gray are reportable repeat findings.
30
   In FYs 2011, 2010, and 2009, each instance of a management issue was documented in observation checklists;
however, in FY 2008, only the district where the management issue occurred was documented and not the total
number of occurrences.


                                                       13
Statistical Tests for Fiscal Year 2011                           FF-MA-11-168



                             Appendix C: Management’s Comments




                                            14
Statistical Tests for Fiscal Year 2011        FF-MA-11-168




                                         15
